SEPTEMBER 24, 2007
  REVIEW REPORT




                                                      OFFICE OF AUDITS




        EFFECTIVE INSPECTION PROGRAM KEY TO
          IMPROVING LABORATORY SAFETY AT
              GLENN RESEARCH CENTER




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-07-032 (ASSIGNMENT NO. S-06-011-00)
Final report released by:



       signed

Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

GLPD         Glenn Lewis Policy Directive
HAZCOM       Hazard Communication Program
OIG          Office of Inspector General
OSHA         Occupational Safety and Health Administration
PI           Principal Investigator
MSDS         Material Safety Data Sheets
SHED         Safety, Health, and Environmental Division
SOP          Standard Operating Procedure



                                                             REPORT NO. IG-07-032
SEPTEMBER 24, 2007




                                                                             OVERVIEW

        EFFECTIVE INSPECTION PROGRAM KEY TO IMPROVING
         LABORATORY SAFETY AT GLENN RESEARCH CENTER

                                                                              The Issue

  This review was initiated in response to two hotline complaints concerning Glenn Safety
  Programs: one concerned laboratory safety and the review process for granting Glenn
  Research Center (Glenn) safety permits, and the second concerned the actions of “first
  responder” personnel to a January 2006 fire in a Glenn underground tunnel. This report
  addresses laboratory safety and the process for reviewing, approving, and maintaining
  safety permits for Glenn laboratory operations; a separate report will address the first
  responder’s activities as they relate to the emergency response system at Glenn.

  Glenn operates scientific laboratories that conduct research and development in areas
  such as microgravity science, fluid physics, and combustion science. To ensure that
  those laboratories are operated in accordance with applicable Federal, NASA, and Glenn
  safety guidance, Glenn requires that each of the laboratories apply for and maintain a
  safety permit that gives the authority to operate a laboratory or piece of equipment within
  the constraints listed on the permit. In addition, the Safety, Health, and Environmental
  Division (SHED) of Glenn’s Safety and Mission Assurance Directorate manages a safety
  and health inspection program with inspectors responsible for detecting, and reporting
  on, hazardous conditions, unsafe work practices, and other occupational safety and health
  issues identified in the laboratories.

  We reviewed the management of the safety permit system and the safety and health
  inspection program, specifically focusing on their impact on overall laboratory safety. In
  January 2007, we conducted a review of 22 Glenn laboratories and evaluated the
  laboratory conditions and operations against Glenn’s laboratory safety guidance and the
  constraints listed on the laboratory safety permit. We also compared the results of our
  review to laboratory inspections performed as part of the safety and health inspection
  program. The details of our review’s scope and methodology are in Appendix A.




REPORT NO. IG-07-032
                                                                                                          OVERVIEW



     Results

     Glenn did not ensure that all of its laboratories were operated in compliance with Glenn
     safety guidance. Specifically, we identified incidents of noncompliance in each of the
     22 laboratories that we reviewed. For those 22 laboratories, 1

            •   9 did not have a safety permit, the safety permit had expired, or the safety permit
                remained active after laboratory operations had ceased;

            •   10 did not have a current or approved standard operating procedure (SOP) (7 had
                no SOP, 2 had SOPs that had expired, and 1 had an SOP that lacked the required
                signature/approval of the Glenn Chemical Hygiene Officer);

            •   16 did not properly identify and store hazardous chemicals or maintain the
                required information for their safe use (for example, in 14 of the 18 laboratories,
                we found unattended flammable chemicals that were not properly stored);

            •   17 were operated without adequate engineering controls or safeguards 2 (for
                example, in 1 laboratory, water valves used to control chilled water were located
                directly above electrically energized equipment, where inadvertent leaks or a line
                rupture could cause an electrically initiated fire and/or result in serious electrical
                shock);

            •   7 were not maintained clean and free from potential hazards, such as keeping
                aisles and stairways free from clutter, cleaning chemical spills, minimizing
                combustibles in workplace and storage areas, and keeping all exits free from
                obstructions;

            •   7 were operated by personnel without the requisite safety training, to include
                laboratory management personnel; and

            •   13 did not meet fire and life safety standards (for example, laboratory personnel,
                when queried, did not have knowledge of primary and secondary emergency
                evacuation routes, did not know the location of the designated safe area, and were
                unfamiliar with the location of the nearest fire alarm).

     Because SHED relies on the facility safety and health inspection program to detect
     laboratory safety violations, we analyzed the SHED inspection results from laboratory
     inspections conducted on or about the period of our review. That analysis indicated that

     1
         The initial sample selected for inspection totaled 39 laboratories, however due to on-going hazardous
         operations, locked doors, and/or the unavailability of laboratory personnel, we were only able to inspect
         22 of the laboratories.
     2
         Engineering controls eliminate or reduce exposure to a chemical or physical hazard through the use or
         substitution of engineered machinery or equipment.



ii                                                                                          REPORT NO. IG-07-032
OVERVIEW



  the SHED inspectors did not identify all of the issues that we identified during our
  review. However, it was difficult to fully validate that premise because SHED did not
  require its inspectors to identify all of the laboratories included in a specific inspection,
  only those laboratories that had violations. Therefore, we did not know whether the
  inspectors missed some of the problems we found or whether some of the problems we
  found were in laboratories that were not included in their inspection.

  The inspection program’s effectiveness could be improved if all laboratories at Glenn
  were subjected to inspection through inclusion in the inspection universe. SHED had
  defined its inspection universe as only those laboratories that had active safety permits,
  which did not account for those laboratories that may have never applied for a permit or
  whose safety permit had expired. We compared the SHED laboratory list to a list
  contained in the Glenn Facilities Division database and noted that the Facilities Division
  database included 192 more laboratories than the SHED list. Although both lists could
  be partially incorrect, reconciliation should be performed periodically to ensure that
  SHED maintains a comprehensive laboratory universe.

  The effectiveness of the inspection program is also dependent on adequate follow up of
  the violations identified during the laboratory inspections. Although Glenn safety
  guidance required that corrective action plans be prepared for safety violations remaining
  open after 30 days, we identified 87 violations that should have had plans but did not.
  Nine of those violations were considered as having the potential to cause minor or severe
  injury or damage to personnel or equipment.

  The risk of injury and/or damage associated with Glenn laboratory operations increases
  when those operations are not conducted in compliance with Glenn safety guidance.
  According to NASA’s Incident Reporting Information System, during the 17-month
  period from January 2006 through May 2007, Glenn reported 28 mishaps 3 and close
  calls 4 that were directly or indirectly related to laboratory operations and the types of
  noncompliance issues that we identified. Had Glenn’s facility safety and health
  inspection program been more effective in identifying, tracking, and monitoring
  laboratory safety violations, we expect that we would have identified fewer incidents of
  safety noncompliance. Improving the effectiveness of the inspection program should
  improve safety compliance and, most important, should reduce the risk of injury to
  personnel and damage to assets and facilities resulting from laboratory operations.




  3
      NASA defines a mishap as an unplanned event that results in injury to personnel or damage to property.
      NASA categorizes mishaps as Type A through Type D based on the severity of injury to personnel or
      total cost of damage to property.
  4
      NASA defines a close call as an occurrence or employee concern that did not result in injury to personnel
      or significant damage to property but possesses the potential to cause a mishap.



REPORT NO. IG-07-032                                                                                              iii
                                                                                      OVERVIEW



     Management Action

     Subsequent to our laboratory review, Glenn began taking corrective action to address a
     number of issues that are identified in this report. Specifically, SHED has initiated a
     comprehensive review of the Glenn chemical management and laboratory safety
     programs and initiated an update of chemical inventories by use of a commercially
     available database. For our findings that indicated an immediate health and/or safety
     threat, such as the improper storage of chemicals, SHED instituted a stop-work order and
     effectively mitigated the threat. That action, along with corrective action taken in
     response to our recommendations, should continue to improve the safety posture within
     the Glenn laboratories.

     In a draft of this report, we recommended that the Director, Safety and Mission
     Assurance, Glenn Research Center, ensure that SHED develops a process that will
     comprehensively define the laboratory universe for the facility safety and health
     inspections. We also recommend that the Glenn Safety Manual, Chapter 24, be revised
     to require the facility safety and health inspectors to indicate not only the building
     number in which an inspection took place, but also the specific laboratories that were
     inspected. We recommend that Chapter 24 be further revised to require that the safety
     and health violation database be monitored and that Glenn management be notified of all
     past-due violations and corrective action plans. Finally, we recommend that SHED
     coordinate a safety stand-down day, in which laboratory personnel conduct a safety self-
     assessment of their laboratories and that the results of those assessments be used by
     SHED to issue violation notices and identify any systemic safety issues.

     The Director, Glenn Research Center concurred with our finding and recommendations
     and provided a corrective action plan that details the actions to be taken for each
     recommendation along with planned completion dates (see Appendix E). We consider
     the recommendations resolved and will close the recommendations upon completion and
     verification of management’s corrective actions.




iv                                                                        REPORT NO. IG-07-032
SEPTEMBER 24, 2007




                                                           CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 2

  RESULTS
      Safety Guidance Not Always Followed at Glenn Laboratories ____ 4

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls _____________________________ 16
      Prior Coverage_______________________________________ 16

  APPENDIX B
      OIG Review Results ___________________________________ 17

  APPENDIX C
      Basic Inspection Checklist ______________________________ 29

  APPENDIX D
      Detailed Inspection Checklist ___________________________ 32

  APPENDIX E
      Management Comments _______________________________ 41

  APPENDIX F
      Report Distribution ___________________________________ 49




REPORT NO. IG-07-032
SEPTEMBER 24, 2007




                                                                                    INTRODUCTION


Background

  As one of NASA’s 10 Centers, the Glenn Research Center (Glenn) develops and transfers
  critical technologies that address national priorities through research, technology
  development, and systems development for safe and reliable aeronautics, aerospace, and
  space applications. To accomplish its mission, Glenn operates scientific laboratories
  where research and development is conducted in areas such as microgravity science, fluid
  physics, and combustion science. The laboratories play a key role in aeropropulsion and
  turbomachinery and are major contributors in material science, aircraft and spacecraft
  structures, instrumentation and controls, and aircraft icing research. According to the
  Glenn Facilities Division, there are 563 laboratories located at Glenn’s Lewis Field,
  which is adjacent to Cleveland Hopkins International Airport in Ohio.

  Laboratory Management. The Glenn laboratories are managed by a principal
  investigator 5 (PI) for the research or technology project or projects that are ongoing in a
  specific laboratory. At Glenn, laboratory personnel work for three of the four NASA
  Mission Directorates—Aeronautics Research, Exploration Systems, and Science.
  Although the laboratories are managed and operated by personnel who work for NASA’s
  Mission Directorates, the authority to conduct a research or technology project in a
  specific laboratory is granted through the Glenn safety permit system. An approved
  safety permit constitutes a license to operate a laboratory or piece of equipment within
  the constraints listed on the permit.

  Laboratory Safety. Glenn’s Safety, Health, and Environmental Board is responsible for
  safety, health, and environmental policy and decision making and provides management
  leadership and oversight for the Center’s Safety and Health Management System. The
  Center Director chairs the Board, and members include the Glenn Operational Directors,
  the Director of Safety and Mission Assurance, and Glenn’s Chief Counsel. The Safety,
  Health, and Environmental Division (SHED) of Glenn’s Safety and Mission Assurance
  Directorate is responsible for laboratory safety and the safety permit system. SHED is
  comprised of three Branches—Safety, Occupational Health, and Environmental
  Management. The Safety Branch recommends minimum acceptable safety standards for
  Center operations, maintains illness and injury records, and monitors Center activities to
  ensure compliance with all applicable safety standards and regulations. The
  Occupational Health Branch is responsible for the evaluation and measurement of
  exposure hazards in the work environment that can cause long-term or latent illness and

  5
      NASA Procedural Requirements 1080.1, “NASA Science Policy,” February 2, 2005, defines Principal
      Investigators as “scientists external or internal to NASA who have received funding to perform specific
      research tasks.”



REPORT NO. IG-07-032                                                                                            1
                                                                                  INTRODUCTION



    disease. The Environmental Management Branch identifies risks posed by current and
    past Glenn programs, operations, and activities and develops and implements processes
    to remediate, abate, and control those risks.

    The Safety, Health, and Environmental Board delegated the approval process for the
    safety permit system to 14 Area Safety Committees (9 geographically based and
    5 specialty based). The Area Safety Committees are comprised of a chairperson,
    personnel with engineering and operational expertise, and representatives from SHED, as
    needed. The Area Safety Committees review proposals for all research and development
    operations, for modifications or additions to facilities and equipment, and for any project
    that may affect safety within their assigned safety area. For those proposals that meet
    Glenn safety requirements, the Committee approves and issues a safety permit; once the
    permit is issued, the requestor may begin the research operation or experiment. SHED’s
    Safety Branch is responsible for maintaining a list of the issued permits and conducting
    periodic inspections of the laboratories to identify hazardous conditions, unsafe or
    unhealthy work practices, and other safety and health issues. The PI must submit a
    revision to the safety permit upon any deviation from the procedures or requirements
    listed on the permit.

    Glenn Safety Guidance. Glenn’s overarching safety policy is Glenn Lewis Policy
    Directive (GLPD) 1702.1I, “Glenn Safety and Health Program,” April 2005, which
    parallels NASA Policy Directive 8710.2D, “NASA Safety and Health Program Policy,”
    April 28, 2004. GLPD 1702.1I addresses the need to effectively manage operations so
    that risk to personnel, property, and the environment is eliminated or reduced. Policy
    documents for other aspects of the safety program include GLPD 1800.2, “Glenn
    Research Center Occupational Health Program,” September 2006, and GLPD 8500.1,
    “NASA Glenn Environmental Management System,” April 2007. The three SHED
    branches publish implementation instructions for Glenn safety guidance in three
    manuals—the Glenn Safety Manual, the Occupational Health Programs Manual, and the
    Environmental Programs Manual.


Objectives

    Our overall objective was to determine whether the Glenn Safety Program was operated
    in accordance with applicable Federal, NASA, and Glenn guidance and if appropriate
    steps were being taken to prevent injury to Center personnel and damage to NASA
    assets. The review was initiated in response to two hotline complaints concerning Glenn
    Safety Programs: the first concerned laboratory safety and the review process for
    granting Glenn safety permits and the second concerned the actions of “first responder”
    personnel to a January 2006 fire in a Glenn underground tunnel. This report addresses
    laboratory safety and the process for reviewing, approving, and maintaining safety
    permits for Glenn laboratory operations; a separate report will address the first
    responder’s activities as they relate to emergency response at Glenn. We also reviewed
    internal controls as they related to the review objective. See Appendix A for details of


2                                                                          REPORT NO. IG-07-032
INTRODUCTION



  the review’s scope and methodology, our review of internal controls, and a list of prior
  coverage.




REPORT NO. IG-07-032                                                                         3
                                                                                                            RESULTS




                                                         SAFETY GUIDANCE NOT ALWAYS
                                                                  FOLLOWED AT GLENN
                                                                       LABORATORIES

               Glenn did not ensure that all of its laboratories were operated in compliance with
               Glenn safety guidance. Specifically, we identified incidents of noncompliance in
               each of the 22 laboratories that we reviewed. For those 22 laboratories, 6

                    •   9 did not have a safety permit, the safety permit had expired, or the safety
                        permit remained active after laboratory operations had ceased;

                    •   10 did not have a current or approved standard operating procedure;

                    •   16 did not properly identify and store hazardous chemicals or maintain the
                        required information for their safe use;

                    •   17 were operated without adequate engineering controls or safeguards 7;

                    •   7 were not maintained clean and free from potential hazards;

                    •   7 were operated by personnel without the requisite safety training; and

                    •   13 did not meet fire and life safety standards.

               SHED’s facility safety and health inspection program was not effectively
               accomplishing its mission to ensure that laboratory safety violations were identified
               and adequately corrected. As a result, Glenn personnel, assets, and facilities were
               placed at an increased risk of injury and/or damage associated with laboratory
               operations. Review of NASA’s Incident Reporting Information System for the
               17-month period from January 2006 through May 2007 indicates that 28 of the
               247 mishaps and close calls reported at Glenn were directly or indirectly related to
               laboratory operations and the types of noncompliance issues that we identified.


Laboratory Safety Guidance

    The “Glenn Safety Manual,” April 2007, and the “Environmental Programs Manual,”
    April 2007, provide specific safety guidance for the Glenn laboratories. The manuals

    6
        The initial sample selected for inspection totaled 39 laboratories, however due to on-going hazardous
        operations, locked doors, and/or the unavailability of laboratory personnel, we were only able to inspect
        22 of the laboratories.
    7
        Engineering controls eliminate or reduce exposure to a chemical or physical hazard through the use or
        substitution of engineered machinery or equipment.


4                                                                                          REPORT NO. IG-07-032
RESULTS



  contain instruction concerning the safety permit system, laboratory standard operating
  procedures (SOP), hazardous chemicals, engineering controls, employee training, and
  fire protection.

  Glenn Safety Manual. The Glenn Safety Manual contains the requirements for safety
  permits and inspections, engineering controls, and fire protection. Chapter 1A, “Safety
  Permit System,” identifies certain activities likely to require an approved safety permit
  and outlines the procedures for requesting, reviewing, issuing, maintaining, renewing,
  and terminating safety permits. Chapter 15, “Personal Protective Equipment,” discusses
  requirements for identifying relevant engineering controls and the need for personal
  protective equipment such as ventilation and respiratory protection. Chapter 27
  “Building Emergency Evacuation Plan Program,” and Chapter 31, “Fire Protection,”
  discuss the fire and life safety protective measures necessary to ensure safe and orderly
  emergency evacuations and the requisite controls designed to prevent, contain, and
  mitigate fires.

  Environmental Programs Manual. The Environmental Programs Manual contains the
  requirements for the Hazard Communication (HAZCOM) Program. The purpose of the
  HAZCOM Program is to inform employees of the hazards associated with chemicals in
  the workplace. Chapter 16, “Hazard Communication Policy,” establishes the methods for
  communicating chemical hazard information, which includes container labeling, Material
  Safety Data Sheets (MSDS), 8 and employee training. The Environmental Programs
  Manual also contains the requirements for laboratory SOPs, chemical management,
  laboratory maintenance, and training. Chapter 17, “Chemical Hygiene Policy,” requires
  every Glenn laboratory to develop an SOP describing the specific operations that take
  place in the laboratory. Each laboratory SOP, along with general measures established in
  the Chemical Hygiene Plan, defines the requisite engineering and procedural controls
  designed to protect employees from the harmful affects of chemicals used in a laboratory.
  Chapter 17 also contains a list of general training requirements for those laboratory
  employees that work with or around hazardous chemicals.


Laboratory Reviews Identified Noncompliance Issues

  Glenn did not ensure that all of its laboratories were operated in compliance with Glenn
  safety guidance. We identified a total of 150 incidents of noncompliance in the
  22 laboratories that we reviewed, pertaining to safety permits, SOPs, chemical
  management, laboratory safeguards, laboratory maintenance, and training. (See
  Appendix B for the list of noncompliance incidents.)



  8
      The Occupational Safety and Health Administration (OSHA) requires chemical manufactures to develop
      MSDS to inform end-users of a chemical’s composition, physical hazards, health hazards, exposure
      routes and limits, toxicology, instructions for safe use, emergency and first aid procedures, and the
      manufacture’s contact information.


REPORT NO. IG-07-032                                                                                          5
                                                                                                 RESULTS



    Safety Permits. Safety permits were not available or valid in nine of the laboratories. In
    eight of the laboratories, operations were taking place that required a safety permit but
    the PI could not provide one. For example, in the Shape Memory Alloy Research and
    Technical Laboratory, laboratory personnel were working with a laser and other high-
    voltage equipment; however, there was no safety permit posted. According to Chapter
    1A of the Glenn Safety Manual, any operation or activity that uses hazardous chemicals,
    pressurized systems, lasers, electrical or mechanical energy sources, or otherwise
    requires fire and life safety controls must have a safety permit.

    The ninth laboratory had an active safety permit posted on the laboratory door, but
    according to documentation gathered in the laboratory, operations had been terminated
    for months. We were able to gain unrestricted access to the laboratory where we
    observed unlabeled chemical containers on top of a workbench and flammable chemicals
    that were improperly stored in a cabinet that was not
    rated for flammable chemical storage. We also
    observed glassware that was coated with a crystallized
    residue and syringes, sharps, and test equipment that
    was unsecured. The laboratory sink contained
    unidentified corrosion and discoloration that is
    consistent with improper waste disposal (see
    Figure 1). None of these conditions should have
    existed, as the Safety Manual specifically states that
    when a laboratory operation or activity is terminated,
    the PI should remove and return the safety permit to        Figure 1. Corrosion in laboratory sink.

    the Glenn Safety Branch and coordinate the phase out
    of the operation, including the removal and disposal of all hazardous materials.

    Laboratory SOPs. Laboratory SOPs were not available or were incomplete in 10 of the
    laboratories. Specifically, 7 laboratories had no SOP and 2 had SOPs that had expired;
    one SOP lacked the required signature/approval of the Glenn Chemical Hygiene Officer.
    The Environmental Programs Manual, Chapter 17, establishes the Glenn Chemical
    Hygiene Plan, which requires the laboratory PIs to develop and submit an SOP to the
    Chemical Hygiene Officer if the PI plans to use chemicals in conducting his or her
    research. The SOP must include an overview of laboratory operations, identify the
    chemicals the PI plans to use in the laboratory, list the regulatory compliance
    requirements, describe emergency response procedures, and reflect guidance for revising
    the SOP, if needed. Without an SOP, laboratory personnel and personnel responding to a
    laboratory emergency may not have access to detailed safety and health information
    tailored to that specific laboratory.

    Chemical Management. With regard to chemical management, we identified
    noncompliance issues in 16 of the laboratories. The Chemical Hygiene Plan outlines the
    Center’s policy regarding chemical management and, in conjunction with the laboratory
    SOPs, contains procedural and engineering controls designed to protect laboratory
    workers from harmful affects presented by hazardous chemicals. The majority of the


6                                                                                REPORT NO. IG-07-032
RESULTS



  noncompliance issues that we identified concerned improper chemical storage and
  labeling. In 14 laboratories, we found unattended flammable chemicals that were not
  properly stored. The Chemical Hygiene Plan requires that all flammable chemicals be
  stored in an approved flammable storage cabinet. 9 It also requires that incompatible
  chemicals or chemicals that can react violently, generate substantial heat, or produce
  flammable or toxic by-products, be segregated from one another. In one laboratory, we
  discovered highly hazardous and reactive chemicals (bromine and lithium) co-located in
  the same unmarked storage space. 10 We also observed instances where food and
  beverages were consumed in areas where chemicals were used and stored.

  Regarding chemical labeling, we found unlabeled
  hazardous chemicals in six of the laboratories (see
  Figure 2). The Chemical Hygiene Plan requires all
  hazardous chemicals to be properly labeled in
  accordance with the HAZCOM Program. The
  label must match the information as stated on the
  MSDS. The labels should list the name of the
  chemical, hazard warnings, and the name and
  address of the manufacturer or other responsible
                                                         Figure 2. Unattended and unlabeled containers
  party. Containers labeled by the chemical              holding hazardous chemicals.
  manufacture do not require additional labels;
  however, when chemicals are transferred to other containers (secondary containers),
  these secondary containers must be separately labeled. 11

  The HAZCOM Program also requires that the employees have ready access to the MSDS
  and that an inventory be maintained for all hazardous chemicals used and stored in the
  workplace. We found that in seven laboratories, personnel did not have ready access to
  the MSDS and were unfamiliar with the properties and hazards of the chemicals used and
  stored in the laboratories. In three of the laboratories, personnel stated that they
  maintained MSDS for the laboratory on an automated information system; however, in
  each instance; computer terminals were not located in the laboratories. According to the
  HAZCOM Program, where electronic access is not available, laboratories should
  maintain the MSDS as hardcopy (i.e., provided as a paper document).



  9
      In accordance with the National Fire Protection Association’s “Flammable and Combustible Liquids
      Code,” Chapter 4.3.3 (b), and OSHA 29, Code of Federal Regulations 1910.106 (d)(3)(ii)(a), an
      approved flammable chemical storage cabinet is constructed of doubled walled No. 18 gauge sheet steel
      with 1 ½ in. (3.8 cm) of air space. The door must have a 3-point latching arrangement and the doorsill
      raised at least 2 in. (5 cm) above the bottom of the cabinet to retain spilled liquid.
  10
       Bromine is a highly reactive corrosive that poses a serious health threat. Although classified as a
       noncombustible material, bromine will act as an accelerant and react violently when it is exposed to
       combustible materials. Lithium is a combustible solid that may ignite or explode when it is exposed to
       flame, heat, corrosives, or oxidizers.
  11
       The only exception to this requirement is if the chemical is intended for immediate use; however, none
       of the instances we are reporting involved chemicals intended for immediate use.


REPORT NO. IG-07-032                                                                                            7
                                                                                                          RESULTS



    Lastly, in five of the laboratories, the chemical inventory list did not reflect the chemicals
    in use and stored in the laboratory. One of those lists had not been updated since
    April 11, 1991. The Chemical Hygiene Plan requires that chemical inventories be taken
    at least annually.

    Laboratory Safeguards. With regard to
    laboratory safeguards, 17 of the laboratories did
    not have engineering controls in place that were
    commensurate with all recognized laboratory
    hazards. For example, in one of the laboratories,
    the PI was performing tests and conducting
    research into the magnetization of neodymium-
    iron-boron (NdFeB). In order to magnetize this
    material, the PI used a wide variety of electrically
                                                             Figure 3. Water valves piped over energized
    energized support equipment. Although the                electrical equipment.
    engineering design was effective to support the
    technical process, basic safety considerations were not incorporated into the design. For
    example, water used to chill the equipment was piped directly over the energized
    equipment where a leak or rupture could result in an electrically initiated fire and/or
    cause electrical shock. The design also included in-line gate valves and fittings that
    could fail or leak, further reducing the margin of safety (see Figure 3). In another
    instance, laboratory personnel were working with a laser without requisite personal
    protective equipment, 12 such as protective eye wear. The Safety Manual requires
    laboratory supervisors and SHED to perform hazard assessments for each laboratory to
    identify hazards and to institute engineering controls and protective equipment to
    mitigate recognized hazards.

    Laboratory Maintenance. In seven laboratories,
    laboratory maintenance standards were not being
    met. The Safety Manual states that all personnel
    are responsible for laboratory safety and must
    follow housekeeping guidelines such as keeping
    aisles and stairways free from clutter, cleaning
    chemical spills, minimizing combustibles in
    workplace and storage areas, and keeping all exits
    free from obstructions. In the NdFeB laboratory,
    we found evidence of water intrusion around             Figure 4. Water intrusion around electrically
                                                            energized equipment.
    electrically energized laboratory equipment and
    along one of the laboratory walls, which created an electric shock hazard and a slip
    hazard (see Figure 4). In the other six laboratories, we found needles, syringes, and
    hazardous tools left out in unoccupied work areas and “slip, trip, and fall” types of
    hazards due to debris accumulation on laboratory floors.
    12
         Personal protective equipment comprises clothing, devices, and other accessories designed to create a
         barrier against workplace hazards. The equipment can include safety glasses, hard hats, safety shoes,
         gloves, ear protection, respirators, and other protective items.


8                                                                                         REPORT NO. IG-07-032
RESULTS



  Training. Personnel in seven of the laboratories did not have training commensurate
  with the work being performed in the laboratory. In several of those laboratories,
  personnel were working with hazardous chemicals and/or biological agents. For
  example, in the “Vertebrate Cell Culture Laboratory,” laboratory personnel were working
  with quail eggs to study biological phenomena such as blood vessel and bone cell
  development; however, the laboratory’s PI stated that she did not have the required
  HAZCOM training. The HAZCOM Program requires laboratory personnel to attend
  HAZCOM training at least once every 3 years. HAZCOM training includes instruction
  on HAZCOM standards, MSDS, Glenn safety policies and procedures, chemical
  inventories, and provides contact information for the Safety Branch.

  Fire and Life Safety. We identified 13
  laboratories that were noncompliant with the
  Safety Manual’s fire and life safety
  requirements with regard to emergency egress,
  emergency response, and hazardous waste
  disposal. The Safety Manual defines
  emergency egress as the process by which a
  continuous and unobstructed way of exit travel
  is maintained from any point in a building to a
  predetermined safe location. We observed
  corridors and a stairway that were identified as
                                                        Figure 5. Blocked path of emergency egress.
  exit routes but were obstructed by boxes and
  unused equipment (see Figure 5). We also
  noted one instance in which exit signs led personnel to a locked exit door.

  With regard to emergency response, personnel in five of the laboratories stated that they
  were unsure of their responsibilities during a fire emergency or chemical spill or release.
  Other personnel stated that they were unsure as to how or when to use a portable fire
  extinguisher. In two of the laboratories, access to the fire extinguishers was partially
  blocked by crates, boxes, and laboratory equipment. The Safety Manual states that
  individual employees are required to be familiar with the emergency procedures for their
  particular work area. Familiarity includes having knowledge of the primary and
  secondary emergency evacuation route, the location of the designated safe area, and the
  identity of the building evacuation monitors. In the event of a fire, personnel are required
  to know the location of the nearest alarm and how to report the emergency to the Glenn
  dispatcher and, if qualified, to fight a fire in its beginning stages by using the appropriate
  portable fire extinguisher.

  Finally, in the area of combustible waste, we identified such waste accumulated on
  workbenches and improperly deposited into ordinary trash receptacles. For the
  laboratories that were using the proper hazardous waste receptacles, those receptacles




REPORT NO. IG-07-032                                                                                  9
                                                                                                            RESULTS



     were not emptied on a daily basis. OSHA regulations 13 require combustible waste to be
     discarded in covered, self-closing receptacles and that those receptacles be emptied daily.


Safety and Health Inspection Program

     SHED’s facility safety and health inspection program was not effectively accomplishing
     its mission to ensure that laboratory safety violations were identified and adequately
     corrected.

     Inspection Program. SHED relies on safety and health inspections as the principal
     means to detect hazardous conditions, unsafe work practices, and other occupational
     safety and health issues in its laboratories. The Glenn Safety Manual, Chapter 24,
     “Facility Safety and Health Inspection Program,” identifies the types of facility safety
     and health inspections SHED conducts, the frequency of those inspections, and the
     responsibilities of the inspectors, management, and the Glenn Safety Branch. SHED
     performs two types of inspections—basic and detailed. Basic inspections are
     unscheduled inspections performed to identify fire, life safety, and industrial hygiene 14
     violations. Detailed inspections cover four areas—safety and health, chemical
     management, industrial hygiene, and health physics—and are designed to identify safety
     violations such as expired safety permits. Basic inspections are performed by Safety
     Branch representatives on a bimonthly basis and detailed inspections are scheduled
     inspections conducted by a team led by a Safety Branch representative. Depending on
     the criticality and risk 15 associated with each facility, detailed facility safety and health
     inspections are performed on a quarterly or annual basis.

     The inspectors use the SHED-developed Bi-Monthly Facility Inspection Checklist when
     performing basic inspections and the Facility Safety and Health Inspection Checklist
     when performing detailed inspections (see Appendixes C and D for copies of the
     checklists). SHED maintains a database that tracks the violations recorded on the
     checklists, generates violation notices, and provides management reports. When a
     violation is posted to the database, a safety violation notice is generated and distributed to
     the PI’s chain of command and the respective building manager where the violation
     occurred. For violations that are open for 30 days or longer, the Safety Manual requires
     that the PI develop a corrective action plan, which must contain a justification as to why
     the violation remains unresolved, a description of the planned corrective action,
     timeframes for completing corrective action, and interim actions to protect employees
     from unsafe conditions caused by the violation.

     13
           In accordance with OSHA 29, Code of Federal Regulations 1910.106(h)(8)(iii), combustible waste
          material and residue must be kept to a minimum; stored in closed, metal waste cans; and disposed of
          daily.
     14
          Industrial hygiene is defined as a science devoted to the protection and improvement of the health and
          well-being of workers exposed to chemical and physical agents in their work environment.
     15
          “Risk” is characterized in the Glenn Safety Program by combining the probability that an undesired
          event will occur with the consequences or severity if it were to occur.


10                                                                                         REPORT NO. IG-07-032
RESULTS



  Laboratory Inspection Universe. SHED did not include all Glenn laboratories in its
  inspection universe and was not aware of the total number of facilities that were
  designated as laboratories at Glenn. When we attempted to define the universe of Glenn
  laboratories for our review, we requested that SHED provide us a list of all Glenn
  laboratories that were conducting operations that warranted inspection under the facility
  safety and health inspection program. SHED personnel stated that their inspection
  universe was based on a list of laboratories with active safety permits and provided a list
  containing 371 laboratories. Upon receiving the list, we became concerned that limiting
  the inspections to laboratories with “active” safety permits did not account for those
  laboratories that had not applied for a permit but should have or those laboratories whose
  safety permits had expired. Subsequently, we contacted the Glenn Facilities Division and
  requested a list of Glenn laboratories from its database. We received a list of
  563 laboratories from the Facilities Division database; 192 laboratories more than the
  SHED list. Neither SHED nor the Facilities Division was aware that such a difference in
  the number of laboratories existed, and we could not confirm whether reconciliation
  between the two lists had ever been conducted.

  SHED needs to include all laboratories in its inspection universe. In our review of
  22 laboratories, we identified 9 laboratories that had no safety permit or had an expired
  safety permit and, therefore, would not be included in the SHED universe. Each of those
  laboratories was conducting operations that required a safety permit and commensurate
  safety controls. To ensure that SHED has visibility over each of the Glenn laboratories,
  it needs to periodically reconcile its list of laboratories that have active safety permits
  with the Facilities Division database. This will improve SHED’s ability to maintain a
  comprehensive inspection universe and identify those laboratories that may be operating
  in violation of Safety Manual requirements and without the proper safety controls.

  Identification of Laboratories Inspected. The inspectors were not required to complete
  checklists for each laboratory inspected during the basic or detailed safety inspections.
  Because we identified 22 laboratories with 150 instances of noncompliance, we wanted
  to determine whether the results of the SHED basic and detailed inspections conducted
  around the period of our review contained similar findings. Because we conducted our
  laboratory review in January 2007, we requested all SHED inspection checklists for the
  period December 2006 through March 2007. Upon review, we found that only the
  laboratories in which violations were identified were annotated on the checklist; the
  checklist did not contain a list of all laboratories inspected. Therefore, we were unable to
  perform a laboratory-by-laboratory comparison between our results and the SHED
  inspection results, although according to the checklists, the SHED inspectors found only
  five health and safety violations in the buildings that we reviewed. Not requiring the
  inspectors to identify all laboratories inspected makes it difficult to hold the inspectors
  accountable for the inspection results because there is no evidence showing which
  laboratories were actually inspected and which laboratories may have been locked or
  otherwise inaccessible during the inspection.




REPORT NO. IG-07-032                                                                             11
                                                                                                            RESULTS



     Inspection Follow-Up. SHED did not adequately follow up on all laboratory safety
     violations identified during the basic and detailed inspections. We reviewed safety
     violation notices issued for the 17-month period between January 2006 and May 2007.
     During that period, SHED issued 165 safety violation notices against the laboratory
     buildings that we reviewed, of which 99 violations remained open for 30 days or longer.
     According to the Glenn Safety Manual, a corrective action plan should be prepared for
     any violation remaining open for more than 30 days. However, only 12 of the 99 open
     violations had corrective action plans. For the 87 violations that did not have corrective
     action plans, 9 were classified as Code 3 or Code 2 violations. Code 3 violations have
     the potential of causing minor injury or damage to personnel or equipment; Code 2
     violations have the potential of causing severe injury or damage to personnel or
     equipment. Glenn should not have those type of violations open for extended periods,
     without a valid corrective action plan. The Safety Manual properly addresses the issue
     by requiring that corrective action plans be prepared and justifications be given as to why
     the violation remains open; however, SHED needs to periodically monitor its violation
     database and ensure corrective action plans are developed for all past-due safety
     violations. Special attention should be given to those violations that are Code 3 or higher
     to ensure that appropriate action is taken to keep employees and equipment safe.


Associated Risk

     The risk of injury and/or damage associated with Glenn laboratory operations increases
     when those operations are not conducted in compliance with Glenn safety guidance. In
     our review of 22 laboratories, we identified 150 instances in which that safety guidance
     was not properly followed. Because we did not derive our sample statistically, we cannot
     project our results to the entire universe of Glenn laboratories; however, we believe that
     our results provide a solid indication that improvements are warranted. According to
     NASA’s Incident Reporting Information System, during the 17-month period from
     January 2006 through May 2007, Glenn reported 247 mishaps 16 and close calls 17 and
     sustained more than $449,049 in related property and vehicle damage. Of those mishaps
     and close calls, 28 directly or indirectly related to laboratory operations and the types of
     noncompliance issues that we identified. Had Glenn’s facility safety and health
     inspection program been more effective in identifying, tracking, and monitoring
     laboratory safety violations, we expect that we would have identified fewer incidents of
     safety noncompliance. Because we reviewed only 22 of the 563 Glenn laboratories
     (4 percent), we believe that SHED should coordinate and sponsor a laboratory stand-
     down day, in which the PI and his or her staff could conduct a safety self-assessment
     based on the SHED checklists. This would provide SHED a baseline of laboratory

     16
          NASA defines a mishap as an unplanned event that results in injury to personnel or damage to property.
          NASA categorizes mishaps as Type A through Type D based on the severity of injury to personnel or
          total cost of damage to property.
     17
          NASA defines a close call as an occurrence or employee concern that did not result in injury to
          personnel or significant damage to property but possesses the potential to cause a mishap.


12                                                                                         REPORT NO. IG-07-032
RESULTS



   conditions, allow for the identification of systemic issues that may need to be addressed
   Center-wide, and provide a universe for follow-up inspections. Such an effort, along
   with improving the effectiveness of the inspection program should improve safety
   compliance, and most important, should reduce the risk of injury to personnel and
   damage to assets and facilities resulting from laboratory operations.


Management Actions


   Subsequent to our laboratory review, Glenn began taking corrective action to address the
   150 noncompliance incidents that we identified. To facilitate that action, we briefed
   senior Glenn management and the SHED chief of our laboratory review results. Both
   were very receptive to our findings. The SHED chief has since initiated a comprehensive
   review of the Glenn chemical management and laboratory safety programs. SHED has
   also begun updating the chemical inventories by use of a commercially available
   database. For our findings that indicated an immediate health and/or safety threat, such
   as the improper storage of chemicals, SHED instituted a stop-work order and effectively
   mitigated the threat. We commend SHED for taking immediate action; that action, along
   with corrective action taken in response to our recommendations, should continue to
   improve the safety posture within the Glenn laboratories.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Director, Safety and Mission Assurance, Glenn Research Center,
should ensure that the Safety, Health, and Environmental Division develops a process that
will comprehensively define the laboratory universe for facility safety and health inspections
that includes, at a minimum, a periodic reconciliation between the Safety, Health, and
Environmental Division’s list of laboratories with active safety permits against the Facility
Division’s list of total Glenn laboratories.

Recommendation 2. The Director, Safety and Mission Assurance, Glenn Research Center,
should ensure that the Safety, Health, and Environmental Division

      a. revise the Glenn Safety Manual, Chapter 24, to require inspectors to annotate the
      building number and the specific laboratories that were inspected during all basic and
      detailed inspections; and

      b. require the safety and health violation database be monitored, by severity code, to
      identify and notify management of all violations that are past due and require a
      corrective action plan.

Recommendation 3. The Director, Safety and Mission Assurance, Glenn Research Center,
should ensure that the Safety, Health, and Environmental Division coordinate a laboratory
safety stand-down day, that, at a minimum, requires that the Principal Investigators and their

REPORT NO. IG-07-032                                                                             13
                                                                                           RESULTS



staff conduct a self-assessment based on the Safety, Health, and Environmental Division’s
checklists.

Recommendation 4. The Director, Safety and Mission Assurance, Glenn Research Center,
should ensure that the Safety, Health, and Environmental Division

        a. record and analyze the results of the laboratory self-assessments and issue
        violation notices in accordance with the Glenn Safety Manual;

        b. identify and address, on a Center-wide basis, any systemic laboratory safety issues
        noted during the analysis; and

        c. based on the number of violations, conduct random or total follow up inspections
        to ensure that appropriate corrective action was taken.

     Management’s Response. The Director, Glenn Research Center, concurred, and
     provided a corrective action plan that addresses each of the recommendations. He stated
     that the Safety Branch would conduct an immediate reconciliation of the Safety, Health,
     and Environmental Division’s safety permit list with the list of laboratories maintained
     by the Facility Division. Once the reconciliation is complete, Safety Branch personnel
     will physically review the laboratories identified as not having active safety permits and,
     if necessary, issue violation notices in accordance with the Glenn Safety Manual. The
     Safety Branch will also establish a process to ensure that the safety permit tracking
     system is updated when laboratories are established or terminated or if the hazards
     associated with a specific laboratory change.

     Regarding the laboratory safety inspections, the Center Director stated that the Glenn
     Safety Manual will be revised to require inspectors to annotate the building number and
     specific laboratory inspected during all basic and detailed inspections. In addition, the
     safety and health violation database will be monitored for past-due violations, and when
     identified, the cognizant managers will be required to present a closure plan to the Center
     Operations Management Council.

     The Center Director also agreed to hold a Center-wide safety stand-down day in
     conjunction with Center-wide safety day events. During the stand-down day, the
     laboratory principal investigators, supervisors, and employees will be required to conduct
     and document self-assessments based on the existing laboratory safety checklists. Any
     safety violations identified will be immediately corrected or documented in the safety and
     health violation database. The violations will be trended to identify any systemic
     laboratory safety concerns.

     Evaluation of Management’s Response. Management’s comments are responsive. The
     recommendations are resolved and will be closed upon completion and verification of
     management’s corrective action




14                                                                          REPORT NO. IG-07-032
APPENDIX A




                                                                          APPENDIX A


Scope and Methodology

  We collected, reviewed, and analyzed guidance and documents relating to laboratory
  safety and the Glenn safety permit system. Specifically, we evaluated OSHA
  requirements, Executive Orders, and applicable NASA and Glenn safety guidance. We
  also reviewed selected laboratory safety permits, SOPs, laboratory inspection results,
  corrective action plans, and facility database information. We interviewed Glenn
  officials including, the SHED Division and branch chiefs, Area Safety Committee
  chairpersons, and Glenn senior management to obtain an overview of the Glenn safety
  program and to gain an in-depth understanding of the safety permit process and
  laboratory inspection program.

  We reviewed laboratory operations in 22 Glenn laboratories, the laboratories were
  selected for review by the Office of Inspector General (OIG) Safety Manager on the basis
  of severity of operational hazards identified in laboratory safety permits. During the
  reviews, we observed laboratory operations and interviewed laboratory management and
  staff to determine if each laboratory operated with the appropriate permits, maintained
  standard operating procedures, properly managed hazardous chemicals, had appropriate
  engineering controls and safeguards, maintained cleanliness, and met fire standards.

  We compared the results of our inspections to the results of Glenn safety, occupational
  health, health physics, and chemical management inspections performed in calendar year
  2006 and the first quarter of calendar year 2007. We obtained the results of those safety
  inspections by querying the Glenn facility inspection database and reviewing associated
  inspection checklists. We also queried NASA’s Incident Reporting Information System
  for the 17-month period from January 2006 through May 2007, to identify mishaps and
  close calls that were reported at Glenn and determine if any of those mishaps and close
  calls were indirectly related to laboratory operations and the types of noncompliance
  issues that we identified.

  We performed this review at the Glenn Research Center from May 2006 through
  June 2007.

  Use of Computer-Processed Data. We did not perform a detailed assessment of the
  reliability of the data reported in the Glenn facility inspection database or the Incident
  Reporting Information System. We reviewed the checklists that supported the facility
  inspection database but could not validate the results as the checklists represented
  laboratory conditions at a certain point in time. We did not review supporting
  documentation for the Incident Reporting Information System. However, changes in the



REPORT NO. IG-07-032                                                                           15
                                                                                       APPENDIX A



     inspection results and the incidents reported would not change our conclusions or
     recommendations.


Review of Internal Controls

     We reviewed internal controls for Glenn laboratory safety to include applicable policies
     and procedures and the oversight activities of the SHED and the Area Safety
     Committees. We identified weaknesses in the SHED oversight activities, specifically
     concerning the facility health and safety inspection program. Implementing the
     recommendations in this report to comprehensively address the inspection program
     should improve the internal controls over laboratory safety.

Prior Coverage

     During the last 5 years, the Government Accountability Office and the NASA Office of
     Inspector General have not issued any reports of particular relevance to the subject of this
     report.




16                                                                          REPORT NO. IG-07-032
APPENDIX B




                       OIG REVIEW RESULTS




REPORT NO. IG-07-032                        17
              APPENDIX B




18   REPORT NO. IG-07-032
APPENDIX B




REPORT NO. IG-07-032   19
              APPENDIX B




20   REPORT NO. IG-07-032
APPENDIX B




REPORT NO. IG-07-032   21
              APPENDIX B




22   REPORT NO. IG-07-032
APPENDIX B




REPORT NO. IG-07-032   23
              APPENDIX B




24   REPORT NO. IG-07-032
APPENDIX B




REPORT NO. IG-07-032   25
              APPENDIX B




26   REPORT NO. IG-07-032
APPENDIX B




REPORT NO. IG-07-032   27
              APPENDIX B




28   REPORT NO. IG-07-032
APPENDIX C




                       BASIC INSPECTION CHECKLIST




REPORT NO. IG-07-032                                29
              APPENDIX C




30   REPORT NO. IG-07-032
APPENDIX C




REPORT NO. IG-07-032   31
                               APPENDIX D




     DETAILED INSPECTION CHECKLIST




32                    REPORT NO. IG-07-032
APPENDIX D




REPORT NO. IG-07-032   33
              APPENDIX D




34   REPORT NO. IG-07-032
APPENDIX D




REPORT NO. IG-07-032   35
              APPENDIX D




36   REPORT NO. IG-07-032
APPENDIX D




REPORT NO. IG-07-032   37
              APPENDIX D




38   REPORT NO. IG-07-032
APPENDIX D




REPORT NO. IG-07-032   39
              APPENDIX D




40   REPORT NO. IG-07-032
APPENDIX E




                       MANAGEMENT COMMENTS




REPORT NO. IG-07-032                         41
              APPENDIX E




42   REPORT NO. IG-07-032
APPENDIX E




REPORT NO. IG-07-032   43
              APPENDIX E




44   REPORT NO. IG-07-032
APPENDIX E




REPORT NO. IG-07-032   45
              APPENDIX E




46   REPORT NO. IG-07-032
APPENDIX E




REPORT NO. IG-07-032   47
              APPENDIX E




48   REPORT NO. IG-07-032
APPENDIX F
   REPORT



                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Safety and Mission Assurance
  Assistant Administrator for Internal Controls and Management Systems
  Center Director, Glenn Research Center
  Director for Safety and Mission Assurance Directorate, Glenn Research Center
  Chief for Safety, Health, and Environmental Division, Glenn Research Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Senate Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Senate Subcommittee on Space, Aeronautics, and Related Sciences
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     House Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     House Subcommittee on Government Management, Organization, and Procurement
  House Committee on Science and Technology
     House Subcommittee on Investigations and Oversight
     House Subcommittee on Space and Aeronautics




REPORT NO. IG-07-032                                                                49
Major Contributors to the Report:
   Carol Gorman, Director, Space Operations and Exploration Directorate
   Ronald Yarbrough, Project Leader
   Michael Bruns, Lead Auditor
   Michael Brant, Auditor
   Eugene Bauer, Auditor
   Janet Overton, Report Process Manager




REPORT NO. IG-07-032                                                      51
                                                                              SEPTEMBER 24, 2007
                                                                      REPORT No. IG-07-032




                                                                               OFFICE OF AUDITS

                                                               OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html to obtain additional copies of this
report, or contact the Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Quality
Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://www.hq.nasa.gov/office/oig/hq/hotline.html#form.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.
